                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

Case Number: A11060046                                                                                            Page 1 of 1



        NSF OIG received an allegation that: NSF grant recipients 1 (PI2 and Subjece) did not comply
        with NSF data sharing policy; the Subject falsified/fabricated his research; the cognizant P04 had
        a conflict of interest (COl) in enforcing the data sharing policy; the Subject's University5 is not
        enforcing federal data sharing laws; and the University retaliated against a Complainant for being
        a whistleblower.

         We reviewed the award letter and the then relevant NSF policies, interviewed the PO, contacted
         the Subject, and requested information from the University.

         Based on our review, the Subject, who was at the time a graduate student, was not aware of the
         award language and believed in good faith he had satisfactorily addressed requests for access to
         award data. In addition, data requests were made approximately seven years after the award's
         final report submission. We found the Subject's handling of the data reasonable under the
         circumstances, and sent him a letter reminding him ofNSF's requirements regarding data sharing
         and data retention on all current and/or future NSF awards.

         Regarding the allegation of data fabrication/falsification, we reviewed and concurred with the
         University's 2007 inquiry conclusion6 that found no evidence of fabrication or falsification.

         Regarding the remaining allegations, we found no evidence to substantiate that the PO favored
         the PI and Subject in this matter due to a COl, or that the University is not enforcing data sharing
         laws. We also determined that the whistleblower retaliation matter is outside our jurisdiction.

         Accordingly, this case is closed.




                                                                                  The award, though awarded to the PI, funded



         6
             Institutions are not required to inform NSF OIG of inquiries that do not result in investigations.




NSF OIG Form 2 (11/02)
